        Mr. Chairman and members of the Subcommittee, I am here in response to

your July 18, 1996, letter of invitation to testify on funding for Department of Energy

research and development in a constrained budget environment.

        The Office of Inspector General has completed a number of audits in the

general area of cooperative agreements, cost sharing arrangements and the

Department's recoupment decisions. One of our objectives has been to determine if

the interests of the taxpayers have been given appropriate consideration in

recoupment decisions on research and development joint ventures between the

Government and the private sector.

        As required by Public Law 98-473, Joint Resolution Making Continuing

Appropriations for FY 1985 and for Other Purposes, the Department of Energy

established a Clean Coal Technology Program (commonly referred to as CCT). The

Department stated that the purpose of the program was to successfully demonstrate

a new generation of advanced coal-based technologies and to stimulate the transfer

of the most promising of these technologies into the domestic and international

marketplace. The Department established a goal to recover an amount up to the

taxpayers' investment in successfully commercialized projects.

        On June 6, 1996, we issued an audit report on this subject, entitled, "Audit of

Department of Energy's Activities Designed to Recover the Taxpayers' Investment in

the Clean Coal Technology Program." Our audit showed that the Department's

recoupment practices limited its opportunity to recover the taxpayers’ investments.

                                           1
Decisions regarding these recoupment practices were made without the benefit of

economic analyses to determine their impact on the Department's goal of recouping

the taxpayers' investment. We recommended that the Department formally analyze

and justify any decision in future recoupment efforts that limits the Department's

ability to recover the taxpayers’ investment in successfully commercialized

technologies.

        I would like to provide some background on the Clean Coal Technology

Program. The CCT is a Department of Energy and industry cost-shared partnership

established to demonstrate and commercialize a new generation of advanced coal-

based technologies. It was envisioned that the CCT would play a major role in

ensuring that the U.S. leads the world in developing, applying, and exporting

sustainable, clean, and economically competitive energy technologies.

        Under terms of the statute, the Department may not finance more than 50

percent of the total cost of any single project and may only share in project cost

growth up to 25 percent of the originally negotiated Government share.

        As of December 31, 1995, the Clean Coal Technology Program included 42

projects with a total estimated cost of $6.0 billion. The Department of Energy's cost

share for these projects was approximately $2.3 billion while industry contributed

about $3.7 billion. The projects were selected through five rounds of competitive

solicitations over an 8-year period (1986-1993). Each cooperative agreement and

ancillary documentation includes separate, negotiated terms which stipulate the

Government funding commitment and the repayment responsibilities of the

private sector sponsor.



                                           2
The repayment agreements are for 20 years and they include specific language

indicating that it is the intent of the Government to recoup up to the full amount of

the taxpayers' contribution in each project once the technology has been

successfully commercialized.

        The audit included an examination of the CCT recoupment practices for 16 of

the 42 projects. A detailed analysis was performed for 6 projects where recoupment

decisions have affected the ability of the Department to recover the taxpayers’

investment. The Department’s cost share for these 6 projects was $151 million. The

audit disclosed that because of its recoupment decisions, the Department limited its

ability to recover an estimated $133.7 million of this cost. We found that recoupment

decisions which exempted foreign sales, excluded some domestic sales, and

lowered repayment rates were made without the benefit of thorough, documented

economic analyses.

EXEMPTION OF FOREIGN SALES

        The Department limited its opportunity to recover an estimated $120.3

million in four clean coal projects by exempting foreign sales from the repayment

agreements. We were informed that this decision was made because of a general

belief that sales of the technology would be in the domestic market and that the

Department had concluded that a mechanism could not be established to verify sales

outside of the United States.



                                           3
